No.

IN THE

JBuprimw (Hmxrt af the ^niteb
Chris Anthony George,
Petitioner,

v.

Raymond Madden, Warden,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE PURSUANT TO RULE 33
Pursuant to Rule 33.2, I hereby certify that this petition is 40 pages

long and therefore complies with the page limit set out in Rule 33 and was
prepared in 13-point Century Schoolbook font.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Interim Federal Public Defender

DATED: September 23, 2020

MARK R. DROZDOW^KV
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record
1

